CAPITAL CASE
No. 20-1197

In the Supreme Court of the United States
__________
EUGENE MILTON CLEMONS II, PETITIONER-APPELLANT,
v.
JEFFERSON S. DUNN, COMMISSIONER, ALABAMA DEPARTMENT OF CORRECTIONS, ET
AL., RESPONDENTS.
__________
CERTIFICATE OF COMPLIANCE
I, Linda T. Coberly, a member of the bar of this Court and counsel for Petitioner,
certify pursuant to Rule 33.1(h) of the Rules of this Court that the accompanying
Reply Brief in Support of Certiorari, which was prepared using Century Schoolbook
12-point typeface, contains 3,000 words, excluding the parts of the document that are
exempted by Rule 33.1(d). This certificate was prepared in reliance on the word-count
function of the word-processing system (Microsoft Word) used to prepare the
document.
I declare under penalty of perjury that the foregoing is true and correct.
DATED this 14th day of May 2021.
/s/ Linda T. Coberly
WINSTON & STRAWN LLP
35 W. Wacker Drive
Chicago, IL 60601
(312) 558-5600
LCoberly@winston.com

